                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     Briefing Report:
                     Review of EPA’s Process to
                     Release Information Under the
                     Freedom of Information Act
                     Report No. 14-P-0262                   May 16, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Patrick Gilbride
                                                    Randy Holthaus
                                                    Raul Adrian
                                                    Todd Goldman
                                                    Kevin Lawrence
                                                    Lori Ruk




Abbreviations

CFR           Code of Federal Regulations
EPA           U.S. Environmental Protection Agency
FOIA          Freedom of Information Act
FY            Fiscal Year
OARM          Office of Administration and Resources Management
OEI           Office of Environmental Information
OGC           Office of General Counsel
OIG           Office of Inspector General
OMB           Office of Management and Budget
ORD           Office of Research and Development
OSWER         Office of Solid Waste and Emergency Response
OW            Office of Water



Hotline                                        Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
through one of the following methods:          contact us through one of the following methods:

email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:    EPA Inspector General Hotline        write:    EPA Inspector General
          1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2410T
          Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency                                              14-P-0262
                                                                                                        May 16, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review
                                    Briefing Report: Review of EPA’s
In Office of Inspector General      Process to Release Information Under the
planning outreach we conducted
with the U.S. Environmental         Freedom of Information Act
Protection Agency (EPA) and
congressional sources, they          What We Found
expressed concern about
possible inconsistencies in how     Each EPA region and headquarters office has processes for addressing FOIA
the EPA decides what                requests. While the regional and headquarters’ processes vary, they all lead to
information to release under the    a decision to release or withhold information based on an evaluation of the
Freedom of Information Act          request and the exemptions and exclusions prescribed in the FOIA. To ensure
(FOIA). In response, we             consistency in the processes used throughout the agency, the EPA’s Office of
conducted this review to            Environmental Information approved agencywide Interim FOIA Procedures in
determine how the EPA offices       September 2013, and plans to finalize them by the end of September 2014.
and regions decide what
information to release under the    During our review, we obtained and reviewed FOIA procedures from all
FOIA.                               10 regions and four headquarters program offices, and found the following:

The FOIA is a law that                  All offices, except one, had internal FOIA procedures in writing to varying
governs public access to                 degrees. For example, some procedures were still in draft or were dated
U.S. government records.                 prior to the EPA’s implementation of its current online electronic system
FOIA carries a presumption of            for processing FOIA requests—FOIAonline. In addition, some were
disclosure.                              detailed while others consisted of a basic flowchart or narrative
                                         description of the process.
This report addresses the
following EPA theme:                    Seven offices (three EPA regions and all four headquarters program
                                         offices reviewed) had procedures that were not consistent with the EPA’s
  Embracing EPA as a high               current interim FOIA procedures. Primarily, the procedures did not
   performing organization.              include language regarding the use of FOIAonline, or were silent or
                                         unclear regarding who has the authority to sign EPA letters responding to
                                         FOIA requests.

                                     Recommendations and Planned Agency Corrective Actions

                                    We recommend that the EPA Assistant Administrator for Environmental
                                    Information: (1) issue the final agency FOIA procedures by September 30,
                                    2014; and (2) require that Senior Information Officials at each region and
For further information,            headquarters program office certify that their local FOIA procedures are
contact our public affairs office   consistent with the agency’s final procedures by March 31, 2015. The EPA
at (202) 566-2391.                  agreed with both of our recommendations, and its actions, when completed,
                                    will address the issues presented in this report. All recommendations are
The full report is at:              resolved.
www.epa.gov/oig/reports/2014/
20140516-14-P-0262.pdf
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                    THE INSPECTOR GENERAL




                                              May 16, 2014

MEMORANDUM

SUBJECT:       Briefing Report: Review of EPA’s Process to Release Information Under the
               Freedom of Information Act
               Report No. 14-P-0262

FROM:          Arthur A. Elkins Jr.

TO:            Renee Wynn, Acting Assistant Administrator and Chief Information Officer
               Office of Environmental Information

This is a briefing report on the subject evaluation conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency (EPA). This report represents the opinion of the OIG and does
not necessarily represent the final EPA position. In accordance with established audit-resolution
procedures, EPA managers will make final determinations on matters in this report.

Action Required

You are not required to provide a written response to this final report because you agreed to all
recommendations and provided corrective actions and planned completion dates that meet the intent of
our recommendations. The recommendations remain open with corrective actions ongoing. Please
update the EPA’s Management Audit Tracking System as you complete the planned corrective actions
for these recommendations and notify my staff if there is a significant change in the agreed-to corrective
actions. We will post this report on our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact the Assistant Inspector
General for Program Evaluation, Carolyn Copper, at (202) 566-0829 or copper.carolyn@epa.gov;
or the Director, Patrick Gilbride, at (303) 312-6969 or gilbride.patrick@epa.gov.
U.S. Environmental Protection Agency
Office of Inspector General
            Review of EPA’s Process to
            Release Information Under the
            Freedom of Information Act

            Report No. 14-P-0262
            May 16, 2014
           Assignment Objective

Our assignment objective was to determine how the
U.S. Environmental Protection Agency (EPA) offices and
regions decide what information to release under the
Freedom of Information Act (FOIA).




                                                         14-P-0262




                                                                 2
                                        Background
   FOIA is a law governing public access to the U.S. government records. FOIA carries a presumption of disclosure.

   At the EPA, the FOIA program is decentralized. The Agency FOIA Officer manages a small staff in headquarters,
    and each region and headquarters program office has a FOIA Coordinator and staff involved in processing FOIA
    requests on a full- or part-time basis. In most cases, the FOIA office will assign the request in FOIAonline to the
    primary FOIA Coordinator in the program or regional office believed to most likely house the majority of
    responsive records.

   FOIAonline is the new online system the EPA uses for processing FOIA requests. The EPA introduced this system
    at the beginning of fiscal year (FY) 2013. The requirement to use FOIAonline to manage all FOIA requests did not
    become effective until June 28, 2013, through the interim FOIA policy.

   The agency approved its Interim Procedures for Responding to Freedom of Information Act (FOIA) Requests on
    September 30, 2013. These procedures address statutory, regulatory, policy, procedural and processing
    requirements to be followed by all EPA organizations in responding to FOIA requests submitted to the EPA. The
    procedures must comprise the core of any office-specific response procedures that are developed and
    implemented in the EPA.

   According to the Agency FOIA Officer, the interim policy and procedures are expected to become final by the end
    of FY 2014. At that time, regions and offices will have 6 more months (around March 2015) to establish office
    specific procedures that are consistent with the interim procedures.

                                                                                                                      14-P-0262




                                                                                                                              3
                         Background (continued)
Table 1 shows that, between FYs 2010-2012, EPA received 30,221 FOIA requests. Of those, EPA
partially or fully denied 2,182 requests (about 7.2 percent). Requests were fully denied in less than
1 percent of the cases.


                Table 1: Breakdown of FOIA requests received/denied
                                              (FYs 2010-2012)

           Fiscal year           Requests            Partial grants/               Full denials
                                 received            partial denials          (based on exemptions)


             2012                         9,689               609 (6.29%)                   96 (0.99%)
             2011                        10,123               676 (6.68%)                   94 (0.93%)
             2010                        10,409               607 (5.83%)                  100 (0.96%)
          3-Year Total                   30,221             1,892 (6.26%)                  290 (0.96%)

          Source: EPA FOIA Annual Reports.




                                                                                                         14-P-0262




                                                                                                                 4
                                           Criteria
   5 U.S.C. § 552, Freedom of Information Act.
             The act identifies exemptions—categories of information that are not required to be released to a
             FOIA requestor because release would be harmful to governmental or private interests. The act also
             excludes certain information related to law enforcement and national security from the requirements
             of FOIA. See a list of the FOIA exemptions on the following slide.

   40 CFR, Part 2, Subpart A, Procedures for Disclosure of Records Under the Freedom of
    Information Act.
             This subpart contains the rules that the EPA follows in processing requests for records under the
             FOIA.


   CIO 2157.0, Interim Freedom of Information Act (FOIA) Policy, June 28, 2013.
             “All FOIA requests received at the EPA will be managed throughout their life cycle in FOIAonline,
             the Agency’s new FOIA processing and records repository tool. All records provided by the EPA in
             response to a FOIA request must be entered into FOIAonline unless subject to special handling
             requirements or policies.”

   CIO 2157-P-01-0, Interim Procedures For Responding To Freedom of Information Act (FOIA)
    Requests, September 30, 2013.
             These interim procedures provide basic instructions for responding to FOIA requests submitted to
             the EPA and must comprise the core of any office-specific FOIA response procedures that are
             developed and implemented in the EPA .                                                           14-P-0262




                                                                                                                      5
                               Criteria (continued)
FOIA Exemptions

  • Exemption 1: Classified national defense and foreign policy information.

  • Exemption 2: Internal personnel rules and practices of an agency.

  • Exemption 3: Information that is prohibited from disclosure by another federal law.

  • Exemption 4: Trade secrets and other confidential business information.

  • Exemption 5: Inter-agency or intra-agency communications that are protected by legal privileges.

  • Exemption 6: Information involving matters of personal privacy.

  • Exemption 7: Certain records or information compiled for law enforcement purposes.

  • Exemption 8: Information relating to the supervision of financial institutions.

  • Exemption 9: Geological information on wells.

                                                                                                       14-P-0262




                                                                                                               6
               Scope & Methodology
   Reviewed key criteria (federal statute, regulations, and EPA policies and procedures).
   Reviewed prior U.S. Government Accountability Office and the EPA Office of Inspector General reports.
   Interviewed FOIA personnel at headquarters and Regions 4 and 6. The Agency FOIA Officer is located in
    headquarters, and we selected Regions 4 and 6 due to a large number of FOIA requests partially or fully
    denied in FY 2012 compared to other regions (Region 4), and senior managers having expressed concern
    about the FOIA process to the OIG prior to our review (Region 6).
   Selected and reviewed a sample of 33 requests that were fully or partially denied or appealed during
    FY 2013, as follows:


                                         R4         R6        HQ       Total
                 Sample size
                 Partial denials          4          1         11         16
                 Full denials             2          2          3          7
                 Appeals                  1          1          8         10
                                          7          4         22         33

                 Universe
                 Partial denials         78         23        218        319
                 Full denials             2          2         62         66
                 Appeals                  3          6        159        168
                                         83         31        439        553
                                                                                                          14-P-0262




                                                                                                                  7
       Scope & Methodology (continued)
   Selected and reviewed an additional sample of 12 requests that resulted in either full or partial denials and were
    received on or after July 1, 2013 (after the interim policy went into effect requiring full use of FOIAonline).

          o    No requests resulting in a full denial were received in Regions 4 or 6 from July 1, 2013, to the date
               we selected our sample. Therefore, we selected two requests listed as partial denials for each
               region.
          o    From headquarters, we selected four requests received on or after July 1, 2013, that were listed as
               full denials and four requests listed as partial denials.

   Requested and obtained FOIA procedures from all 10 regions and four headquarters program offices:
    Office of Administration and Resources Management (OARM), Office of Research and Development (ORD),
    Office of Solid Waste and Emergency Response (OSWER), and Office of Water (OW). We selected those
    four headquarters program offices for review because those offices, in their FY 2012 Federal Managers
    Financial Integrity Act submissions, made no mention of their FOIA programs. We reviewed existing procedures
    to determine whether they were consistent with the EPA’s interim FOIA procedures.

   During FY 2013, the EPA’s FOIA program underwent changes in its data tracking systems, policies and
    procedures. Some of these changes are not yet fully implemented. Therefore, we conducted limited testing of
    the effectiveness of EPA’s FOIA process.

   We conducted our work from August 2013 to January 2014.
                                                                                                                       14-P-0262




                                                                                                                               8
                    Overall Results
Each EPA region and office has processes for addressing FOIA requests.
While the regional and headquarters’ processes vary, they all lead to a
decision to release or withhold information based on an evaluation of the
request and the exemptions and exclusions prescribed in the FOIA.
Common elements of the regional and headquarters’ processes include:

   Ensure that the request is clearly stated and has sufficient contact
    information about the requester.
   Assign the request to the appropriate individual who can effectively
    conduct the research on a given request.
   Monitor the processing to ensure timely responses and/or extensions.
   Coordinate with legal counsel as needed.
   Communicate with the requester as needed.

                                                                            14-P-0262




                                                                                    9
            Overall Results (continued)
   For requests received prior to July 2013 (when the interim FOIA policy was
    issued), we identified some minor input errors in FOIAonline and cases where
    documentation was not uploaded into the system. For requests received on or
    after July 1, 2013, we did not find any instances where required
    documentation was missing.

   All 10 regions and three of the four headquarters program offices we sampled
    had FOIA procedures in writing, to varying degrees. Some procedures were
    still in draft or dated prior to the implementation of FOIAonline. Some were
    detailed while others simply included a flow chart or a narrative description of
    the process.

   Seven of the 14 regional and headquarters offices we reviewed had
    procedures that were not consistent with the EPA’s interim procedures. The
    table in the next slide shows a detailed breakdown of whether regions and
    offices had formal procedures and whether the procedures were consistent
    with the EPA’s interim procedures.
                                                                                  14-P-0262




                                                                                          10
                                                                                FOIA procedures
                                                  FOIA procedures                   signed/                   Consistent with FOIA
                   Region/office                    documented                     approved                   interim procedures?
                                                    Yes = 13; No = 1               Yes = 3; No = 11                Yes = 7; No = 7
             Region 1                                      YES                           YES                              YES
             Region 2                                      YES                            NO                              YES
             Region 3                                      YES                           YES                              NO
             Region 4                                      YES                            NO                              YES
             Region 5                                      YES                            NO                              YES
             Region 6                                      YES                           YES                              NO
             Region 7                                      YES                            NO                              NO
             Region 8                                      YES                            NO                              YES
             Region 9                                      YES                            NO                              YES
             Region 10                                     YES                            NO                              YES
             OARM                                          YES                            NO                              NO
             ORD                                           YES                            NO                              NO
             OSWER                                         YES                            NO                              NO
             OW                                            NO                             NO                              NO



Note: For purposes of our review, procedures had to incorporate information about FOIAonline to be considered consistent with the EPA’s interim FOIA procedures.




                                                                                                                                                               14-P-0262




                                                                                                                                                                       11
                         Conclusions
   The EPA does not plan to finalize its FOIA policy and procedures until the end
    of FY 2014. During this period of transition, the EPA should make it clear that
    regions and offices should be following the agency’s FOIA interim procedures.

   The EPA will require regions and program offices to develop internal FOIA
    procedures that are consistent with the new final agency procedures. Based
    on a timeframe negotiated within the EPA by the Office of General Counsel
    and all Regional Counsels, the EPA plans to give regions and program offices
    6 months from the date when the interim procedures are finalized to comply
    with this requirement. At that point, the EPA must ensure accountability by
    requiring that each region and program office certifies that their local
    procedures are consistent with the final agency procedures. While it will be
    about another year before regions and offices will be required to have
    documented procedures in place that are consistent with national procedures,
    the EPA should encourage regions and offices to address any inconsistencies
    before then.

                                                                                  14-P-0262




                                                                                          12
                  Recommendations
We recommend that the EPA Assistant Administrator for Environmental
Information:

  (1) Issue the final agency FOIA procedures by September 30, 2014.

  (2) Require that Senior Information Officials at each region and program
      office certify that their local FOIA procedures are consistent with the
      agency’s final procedures by March 31, 2015.

Agency Response and OIG Evaluation

The agency agreed with both of our recommendations. We have reviewed the
proposed corrective actions and timeframes and agree with the agency’s plans
for complying with our recommendations. All recommendations are resolved.
                                                                                14-P-0262




                                                                                        13
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed-To
    No.      No.                         Subject                       Status1        Action Official             Date      Amount      Amount

     1       13    Issue the final agency FOIA procedures by               O     Assistant Administrator for    9/30/14
                   September 30, 2014.                                           Environmental Information

     2       13    Require that the Senior Information Officials at        O     Assistant Administrator for    3/31/15
                   each region and program office certify that their             Environmental Information
                   local FOIA procedures are consistent with the
                   agency’s final procedures by March 31, 2015.




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is unresolved with resolution efforts in progress




14-P-0262
                                                                                                                                              14
                                                                              Appendix A

                               Agency Response

                                       April 8, 2014


MEMORANDUM

SUBJECT: Response to Office of Inspector General Briefing Report No.
         OPE-FY13-0027, “Review of EPA’s Process to Release
         Information Under the Freedom of Information Act.”

FROM:          Renee Wynn /s/
               Acting Assistant Administrator
               and Chief Information Officer

TO:            Arthur A. Elkins, Jr.
               Inspector General

Thank you for the opportunity to review and respond to the recommendations in the
subject audit briefing report. Following is a summary of the agency’s overall position,
along with its position on each of the briefing report recommendations.

AGENCY’S OVERALL POSITION: OEI agrees with the recommendations and plans to
address each recommendation by the estimated completion dates for the corrective
actions as listed in the agreements table below.

OEI understands the OIG will incorporate OEI’s response and then issue the briefing
report as final. The audit will then be closed upon issuance of the final report. The two
recommendations and corrective actions will be tracked in the Management Audit
Tracking System (MATS) until completed.

I want to assure you that EPA is committed to continuous improvements to the FOIA
program. We have made great strides in implementing the recommendations from the
Deputy Administrator’s FOIA workgroup and will continue to implement the workgroup’s
recommendations. Recent improvements in the FOIA program include:

   •        Issuing an interim FOIA policy and interim FOIA processing procedures;
   •        Establishing an implementation schedule for the 22 FOIA recommendations
            made by the FOIA Workgroup;
   •        Beginning quarterly reporting to the Deputy Administrator on the progress
            made in implementing the FOIA Workgroup recommendations;


14-P-0262
                                                                                            15
     •      Sending a quarterly report to Agency Deputy Assistant Administrators and
            Deputy Regional Administrators on the processing status of FOIA requests in
            their organizations;
     •      Delivering training to the Agency’s FOIA coordinators and FOIA officers; and
            other FOIA professionals, employees and managers who make decisions on
            the release of documents; and
     •      Developing a new FOIA Intranet site that provides immediate access to FOIA
            guidance, management reports, tools, and training courses.


If you have any questions regarding this response, please contact Larry Gottesman,
EPA’s FOIA Officer, on 202-566-2162 or Scott Dockum, OEI Audit Follow-Up Manager,
at 202-566-1914.


AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements
  No.             Recommendation                  High-Level            Estimated
                                                   Intended           Completion by
                                                  Corrective          Quarter and FY
                                                   Action(s)

 1            Issue the final Agency FOIA     OEI concurs with      4th Quarter FY 2014
              procedures by September         the
              30, 2014.                       recommendation.



 2            Require that Senior             OEI concurs with      2nd Quarter FY
              Information Officials at each   the                   2015
              region and program office       recommendation.
              certify that their local FOIA
              procedures are consistent
              with the Agency’s final
              procedures by March 31,
              2015.




14-P-0262
                                                                                     16
                                                                                Appendix B


                                    Distribution
Office of the Administrator
Deputy Administrator
Chief of Staff
Assistant Administrator for Environmental Information and Chief Information Officer
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Research and Development
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Water
Regional Administrators, Regions 1–10
Principal Deputy Assistant Administrator for Environmental Information
EPA Freedom of Information Act Officer
Deputy Assistant Administrator for Environmental Information
Audit Follow-Up Coordinator, Office of Environmental Information




14-P-0262
                                                                                        17
